<html>
<title> - EXAMINING THE IMPACTS OF DISEASES ON WILDLIFE CONSERVATION AND MANAGEMENT</title>
<body><pre>[Senate Hearing 116-191]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 116-191
 
                     EXAMINING THE IMPACTS OF DISEASES 
                      ON WILDLIFE CONSERVATION AND 
                               MANAGEMENT

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                              
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 16, 2019

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  

  
  


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
                           ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
 40-418 PDF           WASHINGTON : 2020 
 
       
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
              
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            OCTOBER 16, 2019
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     3

                               WITNESSES

Guertin, Stephen D., Deputy Director for Program Management and 
  Policy, U.S. Fish and Wildlife Service.........................     6
    Prepared statement...........................................     9
    Responses to additional questions from:
        Senator Barrasso.........................................    15
        Senator Carper...........................................    17
        Senator Markey...........................................    21
Cook, Walter E., Clinical Associate Professor, Veterinary 
  Pathobiology, Texas A&M University.............................    22
    Prepared statement...........................................    24
    Responses to additional questions from:
        Senator Barrasso.........................................    31
        Senator Carper...........................................    33
Niederriter, Holly, Environmental Scientist IV and Non-Game 
  Mammal Biologist, Delaware Division of Fish and Wildlife, 
  Department of Natural Resources and Environmental Control......    35
    Prepared statement...........................................    38
    Responses to additional questions from Senator Carper........    45


    EXAMINING THE IMPACTS OF DISEASES ON WILDLIFE CONSERVATION AND 
                               MANAGEMENT

                              ----------                              


                      WEDNESDAY, OCTOBER 16, 2019

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:08 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the committee) presiding.
    Present: Senators Barrasso, Carper, Braun, Rounds, 
Sullivan, Boozman, Ernst, Cardin, and Gillibrand.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    Today, this committee will examine the impacts of disease 
on our wildlife health, human health, and on the economy. We 
will explore what Government can do to combat the growing 
problem that we are facing.
    Successful wildlife conservation and management depends on 
keeping wildlife populations healthy. Unlike in captive 
animals, disease in wildlife is often difficult to prevent, to 
detect, and to control. In many cases, disease hosted in 
infected wildlife can be transmitted to other wildlife, 
domesticated animals, and even to humans.
    Diseases that spread from wildlife to humans pose an 
imminent threat in public health. Eastern equine encephalitis, 
also known as the Triple E, is a virus that can cause human 
brain infections, neurological problems, and even death. Triple 
E is naturally hosted in birds and can be transmitted to people 
through the bite of an infected mosquito.
    In 2019, 31 cases of Triple E infections have been reported 
to the Centers for Disease Control and Prevention. That is an 
alarming 300 percent increase over the previous 10 year 
average. Triple E has already claimed 11 lives across the 
United States this year alone.
    West Nile virus is hosted in birds, transmitted to people 
through the bite of an infected mosquito. An average of 2,500 
people are infected with West Nile virus annually, including 
roughly 40 people in my home State of Wyoming.
    Lyme disease is hosted in birds and mammals like deer and 
mice. It is transmitted to people through the bite of an 
infected tick. An average of 33,000 people annually are 
reported to be infected with Lyme disease.
    According to the Centers for Disease Control and 
Prevention, scientists estimate that more than six out of every 
ten known infectious diseases in people are spread from 
animals. Three out of every four new or emerging infectious 
diseases in people are spread from animals. Every year, tens of 
thousands of Americans will get sick from harmful germs spread 
between animals and people.
    Disease can also spread from wildlife to other wildlife, 
and to domesticated animals, eradicating populations, eroding 
economic value, and creating new threatened and endangered 
species. Earlier this year, the Atlantic magazine ran an 
article entitled The Worst Disease Ever Recorded. It was about 
a particularly deadly fungus known as Bd. Bd has led to the 
extinction of 90 different amphibian species, and the 
catastrophic population decline of over 124 other amphibian 
species.
    White-nose syndrome has killed an estimated 7 million bats 
in the United States. Bats play an important role in 
ecosystems, including through insect control. Largely because 
of white-nose syndrome, the U.S. Fish and Wildlife Service has 
listed the northern long-eared bat as a threatened species 
under the Endangered Species Act.
    In Wyoming, the three diseases that pose the biggest threat 
to wildlife are chronic wasting disease, or CWD; pneumonia 
among bighorn sheep; and brucellosis. Chronic wasting disease 
affects deer, elk, and moose in our State, causing the 
degradation of the animal's brain, loss of bodily control, and 
death. It not only impacts Wyoming's management of these 
species, but also the operation of everything from landfills to 
feed grounds. Hunters have been advised not to eat meat from 
animals that they harvest if they test positive for chronic 
wasting disease.
    Chronic wasting disease has been found in 277 counties in 
24 States.
    Brucellosis afflicts primarily Rocky Mountain elk and bison 
in the northwestern part of Wyoming. From a management 
perspective, transmission of brucellosis between elk or bison 
and domestic cattle is a serious concern. The bacterial disease 
is known to cause severe complications with the pregnancies of 
infected cows, resulting in economic losses for ranchers.
    Also of concern is pneumonia, which has devastated 
Wyoming's herds of bighorn sheep.
    Many entities are responsible for managing wildlife 
disease. States are the primary manager of wildlife within 
their respective borders, and usually they play the most 
important role in fighting wildlife disease.
    Agencies throughout the Federal Government also manage 
wildlife disease. The U.S. Fish and Wildlife Service is the 
primary national wildlife management agency. But it is not 
alone. Other agencies within the Department of the Interior, 
along with the National Oceanic and Atmospheric Administration, 
the Department of Agriculture, and the Centers for Disease 
Control and Prevention, all have important roles.
    With so many Federal and State players involved, 
coordination is clearly a key ingredient to improving the 
response to, and the management of, wildlife-borne disease. So 
I look forward to hearing from our distinguished panel today on 
how the Federal Government can improve the effectiveness of its 
response to wildlife disease.
    I would now like to turn to the Ranking Member, Senator 
Carper, for his opening remarks.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman. Thanks so much for 
bringing us together today.
    I had a chance to talk with each of our witnesses before we 
began the hearing, and I would say to our Deputy Director, 
thank you for all your service. He served, I think 40 years, 
did you say 40 years of service to the people of this country? 
And a number of those years as a Marine. So I can say, the Navy 
salutes the Marine Corps, and thank you for your service. 
Different uniforms, same team. There we go.
    He is also an Aggie, right. You are not an Aggie from 
Texas, right?
    Mr. Guertin. No, sir, Norwich University in Vermont.
    Senator Carper. There you go. All right.
    Dr. Cook, great to see you. Thank you for joining us today.
    And Holly, I will get to give a little introduction of you 
here in a few minutes. We appreciate your presence and your 
testimony.
    Over the past couple of decades, wildlife diseases have 
spread rapidly across the United States. We feel it in Delaware 
and throughout DelMarVa. These diseases oftentimes have far 
reaching impacts on our ecosystems, human health, and the 
economy, and they present significant challenges for wildlife 
managers.
    In Delaware, we have seen the devastating effects that 
disease can have on our wildlife, that includes amphibians, and 
on birds, and on bats. Since its discovery in New York in 2007, 
white-nose syndrome, which the Chairman has alluded to, has 
killed more than 6 million bats and spread to, I am told, 33 
States.
    In Delaware, white-nose syndrome has wiped out entire 
populations of State-endangered little brown bats, which 
provide an important ecosystem service to our farmers, and for 
a little State, we have a lot of them. The service provided by 
those bats is pest control. In fact, one study estimated that 
the economic value of bats to agriculture tops $3.7 billion 
annually, and that is a conservative estimate. That is about 
half of the value of the agricultural economy in our State, in 
years I recall.
    Our country is also grappling with the wildlife diseases 
that mosquitos and ticks transmit to humans and to wildlife. 
West Nile virus, eastern equine encephalitis--did you call it 
Triple E? Triple E, and Lyme are all diseases that these pesky 
insects transmit to wildlife, to livestock, and to humans, with 
sometimes devastating impacts on our economy and on human 
health.
    Because these diseases cross State and jurisdictional 
boundaries, addressing wildlife disease is a challenge that 
requires cooperation and collaboration--two of my favorite C 
words, cooperation and collaboration--between many parties in 
order to get us to consensus. We look forward to hearing from 
our expert witnesses about examples of partnerships between 
Federal agencies, States, tribes, and other parties to address 
wildlife diseases, such as the White-Nose Syndrome Response 
Team.
    I also am interested to hear more today about how our 
Nation's wildlife scientists and managers, at both the State 
and Federal level, are working together to address the spread 
of wildlife disease. I would encourage our witnesses to 
identify areas of opportunity for expanded research and 
innovative management actions.
    In considering solutions to prevent the further spread of 
wildlife disease, however, we would be remiss to overlook the 
fundamental drivers of this problem, including climate change 
and habitat loss. We know that temperature, rainfall, and 
humidity affect the abundance and spread of diseases, and we 
are seeing these impacts firsthand in the First State.
    With warmer and wetter weather, new mosquito species, such 
as the Asian tiger mosquito, are taking residence in the First 
State.
    Mosquito season is also growing longer, I am told. In 
Wilmington, where my wife and I live, our mosquito season now 
averages about 142 days long, and it was only about in the 
1980s, about 30 years ago, that season was 117 days long. So as 
a result, we have seen an increase in cases of mosquito-borne 
diseases among wildlife, among livestock, and Delawareans.
    What's more, change in human land use is causing declines 
in biodiversity, making species more vulnerable to emerging 
diseases by causing habitat loss, degradation, and 
fragmentation. So when we talk about wildlife disease, we must 
also consider how our Nation's extinction crisis is impacting 
its spread.
    I would also note just briefly that this wide range of 
challenges magnifies the need for strong leadership at the 
agencies charged with managing wildlife. We thank you, Mr. 
Guertin, for providing that leadership today.
    During our committee's business meeting just a couple of 
weeks ago, I expressed concern about the Administration's 
nominee to lead the U.S. Fish and Wildlife Service, due in part 
to her reluctance to fully disclose information about her 
previous employment and experience at the Department of 
Interior to this committee. Unfortunately, those concerns 
remain largely unaddressed today.
    I would just end with this: by working together and taking 
a science based, holistic approach, I believe we can develop 
smart solutions that address both the root causes and the 
symptoms of wildlife diseases.
    Again, Mr. Chairman, thanks for bringing us together.
    We look forward to hearing from all of you.
    Thank you.
    Senator Barrasso. Well, thank you very much, Senator 
Carper.
    Before we proceed to hear from our witnesses, I would like 
to introduce Dr. Walter Cook, who currently serves as the 
Clinical Associate Professor of Veterinary Pathobiology at 
Texas A&M University, and a Veterinary Corps officer in the 
U.S. Army Reserves. Dr. Cook's distinguished career includes at 
least 20 years of service in Wyoming addressing the threat of 
wildlife disease, and we are very grateful for that service.
    His experience in Wyoming includes brucellosis coordinator 
at the University of Wyoming's College of Agriculture, State 
Veterinarian for the Wyoming Livestock Board, Wildlife 
Veterinarian for the Wyoming Game and Fish Department, Regional 
Veterinary Coordinator for the Wyoming Department of Health, 
and the large animal veterinarian at Tri-State Large Animal 
Hospital in Cheyenne, Wyoming.
    He has served as an adjunct assistant professor in the 
University of Wyoming's Veterinary Science Department and 
Lecturer at Laramie County Community College. Additionally, for 
7 years, he served as an instructor for the National Center for 
Biological Research and Training at Louisiana State University.
    Dr. Cook's success should come as no surprise, given he 
received his Ph.D. in wildlife epidemiology from the University 
of Wyoming in 1999.
    Dr. Cook, it is a privilege to welcome you as a witness 
today before this committee. We want to thank you for traveling 
to Washington.
    Before turning to the witnesses, I know, Senator Carper, 
you would also like to make an introduction.
    Senator Carper. Thank you.
    Dr. Cook, I didn't realize you were Army. So a special 
privilege to welcome to you.
    Mr. Chairman, I am grateful for the opportunity to 
introduce one of our witnesses, Holly Niederriter. Holly has 
worked for the State of Delaware for nearly 20 years. I think 
she told me she has lived in five States. But she chose to live 
for 20 years in a State whose tree is named after her, the 
holly tree. We have a special fondness for her as a result.
    Throughout her time at Delaware's Department of Natural 
Resources and Environmental Control--well, sitting right behind 
me is our former secretary of that department, right behind me, 
Christophe Tulou, Christophe, raise your hand. Christophe was 
Secretary of the Department, and when he was going out the 
door, Holly walked in the other door and joined our State in 
that department.
    Holly has worked with a wide array of species, I am told, 
including bats, beach nesting birds--we have several of those--
ospreys, turtles, snakes, salamanders, and frogs. She currently 
oversees Delaware's bat program and Delaware's implementation 
of the Delmarva fox squirrel conservation plan, which has been 
a real success.
    Holly has worked with other States and regional efforts as 
well as with the Fish and Wildlife Service, which would include 
Maryland, New Jersey, Pennsylvania, and one more.
    I am trying to think of the States you have either worked 
in or lived in.
    Ms. Niederriter. Maryland, New York; did you say New York?
    Senator Carper. I did not.
    Ms. Niederriter. And New York.
    Senator Carper. OK, thanks. Well, we especially thank you 
for Delaware, the First State, for making us your last stop. We 
hope it is your last stop for a long time.
    Thanks, Holly, and thanks for being with us today.
    Again, we are delighted that you are all here. Welcome, one 
and all.
    Thank you.
    Senator Barrasso. Thank you very much, Senator Carper.
    We welcome all.
    We will hear from three witnesses today. The first will be 
Dr. Stephen Guertin, who is the Deputy Director of the U.S. 
Fish and Wildlife Service at the Department of Interior. Then 
Dr. Walter E. Cook, Clinical Associate Professor of Veterinary 
Pathobiology, Texas A&M. And then Holly Niederriter, Wildlife 
Biologist, Delaware Department of Natural Resources and 
Environmental Control.
    I would like to remind the three of you that your full 
written testimony will be made part of the official record of 
the hearing today. But we please ask you to keep your 
statements to 5 minutes so that we will have time for 
questions. We look forward to hearing your testimony.
    Mr. Guertin.

 STATEMENT OF STEPHEN D. GUERTIN, DEPUTY DIRECTOR FOR PROGRAM 
     MANAGEMENT AND POLICY, U.S. FISH AND WILDLIFE SERVICE

    Mr. Guertin. Good morning, Chairman Barrasso, Ranking 
Member Carper, and members of the committee. Thank you for the 
opportunity to discuss wildlife disease and the challenges it 
poses to wildlife conservation and management.
    Wildlife disease is a complex and dynamic issue that 
presents an enormous challenge to the Fish and Wildlife Service 
in our work to conserve wildlife for current and future 
generations of Americans. My written testimony catalogs the 
large number of diseases that affect wildlife and present 
serious management challenges to the Service and our partners.
    My written testimony also describes in greater detail our 
management response to these challenges. These include diseases 
like chronic wasting disease in deer, elk, and moose; white-
nose syndrome in hibernating bats; and others. I will speak 
more about those in a moment.
    In the last 50 years, there has been a steady increase in 
wildlife mortality caused by infectious diseases. The effect of 
disease on wildlife not only includes the death of individuals, 
but the weakening of resilience to other environmental 
stressors, and ultimately can mean the collapse of entire 
populations. When combined with other stressors, diseases can 
also necessitate increased species protections.
    How does the Service address such a daunting challenge? We 
can't do it alone, and I cannot emphasize enough that our most 
important partners in this effort to address wildlife disease 
are our colleagues in the State fish and wildlife agencies. 
Partnering with States is key for the Service to be able to 
address these multi-jurisdictional challenges, and our seamless 
relationship with the Association of Fish and Wildlife Agencies 
is a great example of this partnership and our shared goal of 
combating wildlife disease.
    The impacts of wildlife disease on species are also a 
threat to the economy. Pollinator species like bats and bees 
are invaluable to agriculture. Wildlife associated recreation 
like hunting, angling, and wildlife watching generated $170 
billion in total expenditures in 2016, the most recent data.
    Wildlife diseases also impact the domestic animals that 
serve as food resources and as our companions. In addition, the 
majority of emerging animal diseases that are transmissible to 
humans originate in wildlife species.
    To address this dynamic nature of wildlife disease, the 
Service houses several nationwide programs that plan for and 
help respond to wildlife diseases, including our Wildlife 
Health Office, Aquatic Animal Health Program, and our White-
Nose Syndrome Program.
    I would now like to talk more about our efforts to address 
two serious and prominent disease threats: white-nose syndrome 
and chronic wasting disease. White-nose syndrome, or WNS, is a 
fungal disease affecting hibernating bats that is estimated to 
have killed more than 6 million bats in the U.S. and Canada 
alone. The fungus responsible for this disease has now spread 
to 38 U.S. States and 7 Canadian provinces. Twelve hibernating 
bat species, including two endangered and one threatened 
species, have been confirmed with WNS in the United States.
    Through annual appropriations language, Congress designated 
the Service as the lead agency to manage the national response 
to WNS, working with Federal, State, tribal, and international 
partners. Since 2008, the Service has been coordinating the 
response to this disease and leading the implementation of a 
national multi-agency response plan. To date, we have awarded 
over $35 million to researchers and State agencies to contain 
the spread of WNS and develop tools to increase the survival of 
affected bat species.
    In the past decade, the WNS response community has made 
extraordinary progress to understand the disease and to develop 
tools to study and reduce the devastating effects on bats in 
North America.
    Chronic wasting disease is a contagious, fatal disease that 
is becoming more prevalent in wild North American cervid 
populations, such as deer, elk, and moose. Unfortunately, there 
is no known treatment or cure for CWD. Therefore, prevention of 
the disease and limiting its spread is essential.
    To date, there have been no reported cases of CWD 
interaction or infection in people, but research on this 
subject is ongoing. Currently, 48 national wildlife refuges, 24 
waterfowl production areas, and 8 fish hatcheries are located 
in counties already affected by CWD. We are working to ensure 
that activities on Service managed lands and the larger DOI 
portfolio are focused on preventing the further spread of CWD 
and minimizing the impacts on already affected populations.
    A high level of collaboration between Federal and State 
agencies, tribes, NGOs, and academia is needed to address the 
growing threat of CWD. States are the ultimate leaders for CWD, 
but the Department can contribute significantly by supporting 
the States and taking prudent actions on lands managed by the 
Department. We have a number of initiatives, including those 
led by our Wildlife Health Office.
    In conclusion, the many challenges posed by wildlife 
diseases are diverse in their nature and inevitably present 
surprises. We will continue to work closely with our partners 
at home and abroad to address these challenges, because 
wildlife diseases do not respect political boundaries and 
threaten every corner of the country.
    Thank you, Mr. Chairman, Senator Carper, for your 
leadership in convening this hearing. We look forward to 
answering your questions as best we can.
    [The prepared statement of Mr. Guertin follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Senator Barrasso. Thanks for that very thoughtful 
testimony. We are very grateful.
    Dr. Cook.

  STATEMENT OF WALTER E. COOK, CLINICAL ASSOCIATE PROFESSOR, 
         VETERINARY PATHOBIOLOGY, TEXAS A&M UNIVERSITY

    Mr. Cook. Good morning, Chairman Barrasso, Ranking Member 
Carper, members of the committee. Thank you for the opportunity 
to provide my perspective on disease challenges to wildlife 
management and conservation.
    Today, I will highlight some of the lessons I have learned 
over the last 25 years dealing with wildlife diseases, and many 
of them have been mentioned already.
    Chronic wasting disease is a prion disease that affects the 
cervid or deer family. Although related to bovine spongiform 
encephalopathy, it is a distinct disease. Prions are infectious 
proteins that convert normal proteins found in the brain into 
their abnormal prion form. Over time, microscopic holes appear, 
and changes in behavior and body condition develop, and 
ultimately result in death.
    CWD can be transmitted to other cervids, directly via 
saliva, urine, or feces, or indirectly when the environment 
gets contaminated. Since this disease was first recognized 50 
year ago, it has been reported in 24 States, 2 Canadian 
provinces, and several other countries.
    Chronic wasting disease has caused declines in some 
populations in Colorado and Wyoming, but not in others. There 
is no evidence that CWD is a human health threat, or that it 
can be naturally transmitted to livestock, but concerns remain.
    The public remains confused and concerned about chronic 
wasting disease. There is a lack of understanding about the 
potential impacts of the disease. There is a feeling among some 
interest groups that regulations are overly stringent. The fact 
that different States manage CWD differently also adds to this 
confusion. Finally, there is a multitude of different messages 
concerning CWD's impact to humans and animals.
    Bighorn sheep respiratory disease complex was also 
previously mentioned by the Chairman. Bighorn sheep are 
extremely susceptible to respiratory pathogens. Huge outbreaks 
have occurred, in some cases eradicating entire populations. In 
a typical scenario there is a die off that affects large 
proportions of the population, then subsequently, that 
population fails to rebound because young animals fail to get 
recruited into the population, even though lambs are being 
born.
    While clearly not absolute, there is an association with 
domestic sheep having close contact with bighorns prior to an 
outbreak. This has caused a great deal of contention between 
domestic sheep producers and wildlife managers and enthusiasts.
    Wyoming resolved this conflict via the Wyoming statewide 
Bighorn/Domestic Sheep Interaction Working Group, which 
included representatives of State and Federal wildlife and 
livestock agencies, producers groups, wildlife non-governmental 
organizations, and enthusiasts. By working from a set of common 
ground rules and common goals, the group became very effective.
    White-nose syndrome of bats is a fungus that was first 
detected in New York, and the disease remains most common in 
the northeast and mid-Atlantic States. It kills by invading the 
skin of hibernating bats and leads to emaciation, which causes 
the bats to wake from hibernation early in the year and 
subsequently succumb to starvation, cold exposure, or both.
    The fungus for white-nose grows well in cold, dark 
environments, the type of environments that bats choose to 
hibernate. As mentioned, it has wiped out over 90 percent of 
the common little brown bat colonies in the northeast, and has 
led to the northern long-eared bat becoming listed as a 
threatened species. And there is concern that it may threaten 
many other species with extinction.
    And as also mentioned, bats are important economically for 
agriculture. The value that they may contribute ranges from $22 
billion to $53 billion per year to agriculture across the U.S.
    Chytrid fungus of amphibian is the most important disease 
to wildlife populations. Estimates are that chytrid may have 
already led to the extinction of 100 species, and may threaten 
populations of 200 more. When susceptible species are infected, 
chytrid causes reddening and thickening of the skin, thus 
preventing its normal function, which also disrupts water and 
electrolyte balance, leading to death.
    The chytrid fungus is sensitive. It prefers moist 
environments, and will not survive below freezing or above 29 
degrees Celsius.
    Anthrax, the one disease that has not been previously 
mentioned, is caused by a bacteria and can be a major cause of 
livestock and wildlife mortality worldwide. Animals typically 
ingest anthrax spores on vegetation or soil. In the 
bloodstream, these replicate as vegetative cells and release 
toxins that rapidly kill the animal. When the tissues or blood 
from the carcass is exposed to air, the vegetative cells return 
to the spore form, and these spores are extremely hardy. They 
can literally survive for hundreds of years.
    Endemic areas in the U.S., which include parts of Texas, 
Montana, and the Dakotas, normally only experience an 
occasional death. But occasionally, when conditions are right, 
huge outbreaks can occur. Such was the case in Texas this past 
summer. It is estimated that 10,000 animals may have died of 
anthrax, with an economic impact of over $15 million.
    There is a safe and effective vaccine available to 
livestock. However, it is impractical to capture and restrain 
thousands of wild animals every year to vaccinate them. This is 
why researchers at Texas A&M University are working on an oral 
vaccine that can be fed to wildlife.
    In conclusion, I would like to state how important it is 
that funding be made available to address wildlife diseases. I 
am particularly concerned with the lack of Federal funds 
available for research aimed at real world management dilemmas.
    And with that, I thank you for inviting me here today.
    [The prepared statement of Mr. Cook follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Senator Barrasso. Thank you very much, Dr. Cook. We are 
delighted that you would accept the invitation to be with us 
and share your knowledge. Thank you.
    We will get to questions in a bit. But first, Ms. 
Niederriter.

STATEMENT OF HOLLY NIEDERRITER, ENVIRONMENTAL SCIENTIST IV AND 
   NON-GAME MAMMAL BIOLOGIST, DELAWARE DIVISION OF FISH AND 
  WILDLIFE, DEPARTMENT OF NATURAL RESOURCES AND ENVIRONMENTAL 
                            CONTROL

    Ms. Niederriter. Good morning, and thank you for this 
opportunity to discuss this very important issue of wildlife 
disease and its impact on wildlife conservation and management.
    The information that I will present today will reflect my 
experience with bats, amphibians, and reptiles and the diseases 
they encounter, and is not intended to diminish the importance 
of any of the other wildlife diseases mentioned here today or 
those not mentioned. Certainly, diseases such as chronic 
wasting disease that affect deer, elk, and similar species, 
rabies, avian influenza, which has the potential to 
substantially impact the billion dollar poultry industry, 
mosquito-borne diseases, such as malaria, West Nile and Zika 
viruses, and a host of other diseases are of concern and can 
benefit from actions taken by this committee today and others. 
However, I will only address the issues with which I am most 
familiar.
    Although disease is a normal part of life, and the battle 
between pathogen and host has been going on since the beginning 
of time, the rapid transport of pathogens over vast distances 
is a relatively new phenomenon, at least for the species I am 
responsible for. As technology has promoted human travel as 
well as international commerce, to include pets, foods, and 
wildlife, pathogens have hitchhiked along and been accidentally 
introduced into wildlife populations. Wildlife exposed to new 
pathogens lack the immunity necessary to fend off disease, and 
the results can be catastrophic, as was seen and is still seen 
with white-nose syndrome in bats.
    Examples include white-nose syndrome in bats, which has 
killed millions of bats at this point; chytrid fungus, which 
has been mentioned today also. There has also been widespread 
declines in amphibians from chytrid fungus, and ranavirus has 
been impacting frogs, salamanders, and turtles and is one of 
those emerging diseases.
    Recently, snake fungal disease has been documented on many 
snake species in the United States, and a new species of 
chytrid fungus has resulted in die offs of salamanders in 
Europe. The impact of an emerging disease on wildlife managers 
at the State level has profound impacts on our projects. The 
need to immediately address diseases often derails other 
important objectives, and funds are diverted from more 
proactive projects.
    In Delaware, the introduction of white-nose syndrome 
diverted over half the time of one of the biologists, which was 
a substantial operational impact in a State as small as 
Delaware. The effects of wildlife diseases extend to other 
species, habitats, human health, agricultural health, and even 
economic health. As mentioned before, bats consume insects that 
feed on crops and can save farmers billions of dollars in 
pesticide application costs.
    And that really does not include the environmental and 
pesticide development costs of the increased need for 
pesticides to sustain productive agriculture. White-nose 
syndrome has been mentioned several times already, but it is 
worthy of those mentions. It has decimated bat populations. As 
has been mentioned before, it has killed millions of bats, and 
it continues to spread throughout North America.
    I have a map here. The disease itself has been documented 
in 33 States and 7 Canadian provinces, and the fungus that 
causes it, Pseudogymnoascus destructans, has been reported in 
five additional States, including North Dakota and California 
this year.
    Northern long-eared bats, now federally listed as 
threatened due to white-nose syndrome, were once one of the 
most abundant bat species in the United States. Losing them 
would be analogous to the American robin and northern cardinal 
suddenly disappearing from people's back yards and feeders.
    The white-nose syndrome response has been unique in that 
the United States Fish and Wildlife Service was appointed the 
lead agency to manage the national response. They have played a 
key role in planning, coordinating partners, funding research, 
and monitoring efforts by State agencies, universities, and 
others. Major progress has been made as a result, and many 
tools for combating white-nose syndrome are being tested.
    None of this would have been possible without a central 
Federal lead and consistent funding. However, none of this 
funding is dedicated, as it is appropriated yearly, which puts 
many of the proposed solutions at risk of not reaching their 
full potential.
    The northeast region has a strong, collaborative network of 
Federal and State biologists, supported through regional taxa 
groups such as Northeast Partners in Amphibian and Reptile 
Conservation, Northeast Bat Working Group, and the Northeast 
Wildlife Disease Cooperative. Delaware is involved with all of 
those groups and has participated in many of these projects.
    One of those projects was led by Maryland's herpetologist, 
Scott Smith. And the goal was to determine the extent of 
ranavirus in a five State area. Ranavirus is a deadly virus 
that affects frogs, turtles, and salamanders, and it can kill 
all the tadpoles present in a given pond in a matter of days.
    The results of this project were alarming, with over 25 
percent of the breeding ponds tested in five States positive 
for ranavirus, and 40 percent of the ponds in Delaware tested 
positive. All of the States had ponds that experienced full die 
offs for all the tadpoles in the pond that year.
    Despite the results of this and other studies, continued 
sampling and research in our region has been limited. Although 
there are many organizations and people dedicated to protecting 
wildlife of all kinds, and there are many effective disease 
response teams targeting specific diseases, the United States 
lacks a central organizing group that can quickly coordinate 
and mobilize in the event of another catastrophic wildlife 
disease.
    Diseases transcend political boundaries, and the issue 
would benefit from a dedicated, fully funded, federally based 
wildlife disease task team to assist States when novel 
pathogens are encountered, and with ongoing research and 
surveillance efforts for existing and imminent diseases. 
Additionally, expanding and strengthening Federal laws to 
prevent the introduction of foreign wildlife could greatly 
reduce the chances of new diseases being introduced.
    I want to thank you again for the opportunity to testify 
today.
    [The prepared statement of Ms. Niederriter follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Senator Barrasso. Thank you very much to all three of you.
    We are now going to proceed with questions, if we may.
    I would like to start with Dr. Cook.
    Are there lessons that State and Federal wildlife managers 
can learn from the many years of brucellosis trials when 
creating a cohesive plan for trying to do what we are trying to 
do now, with fighting chronic wasting disease, lessons from the 
one that may apply to the other?
    Mr. Cook. Yes, thank you, Chairman Barrasso, for that 
thoughtful question. I worked on the brucellosis issue for a 
number of years. It is a frustrating disease, with economic 
impacts and wildlife impacts as well.
    There was a group known as the Greater Yellowstone 
Interagency Brucellosis Committee which was very successful for 
a number of years. That group consisted of stakeholders from 
the Federal Government, both wildlife agencies and agriculture 
agencies, as well as their State counterparts, and livestock 
interest organizations, wildlife interest organizations. They 
worked collaboratively, to borrow the phrase from Ranking 
Member Carper, they worked cooperatively and collaboratively to 
achieve some really good successes.
    So I think that that kind of shows you, as a role model, 
the way that one of these committees can work. By including all 
the stakeholders, by having common ground and common interests, 
and respecting one another, and working in good faith, they 
were able to accomplish a number of things.
    We also had some funding that was available through that. 
One of the things that we saw that has occurred with 
brucellosis more recently is that as funding has declined, some 
of the interest, particularly at the Federal level, has 
subsequently also declined. So that GYABC group has basically 
ceased to exist.
    In its place, at the State level, in Wyoming at least, 
there is a Governor's brucellosis task force, but just 
consisting of the State interest groups and stakeholders, 
trying to accomplish more or less the same thing.
    Senator Barrasso. Thank you very much.
    Mr. Guertin, fighting wildlife disease your whole life, you 
have been a long time, dedicated public servant, sometimes 
necessitates measures that impact the environment. 
Specifically, spraying for mosquitos to reduce risks to public 
health of mosquito-borne disease. We have seen that, certainly, 
in Wyoming. Mitigating environmental impacts is important; so 
is protecting the public health.
    So how does the U.S. Fish and Wildlife Service balance 
protecting the environment, also protecting humans from 
wildlife diseases and the insects that then transmit them?
    Mr. Guertin. Thank you, Mr. Chairman. The Service, first 
and foremost, works with all of our partners on the landscape 
to develop a shared vision and a shared, overarching response 
to get at the root cause of the disease outbreak, and then 
apply the appropriate treatment as necessary.
    There have been cases where the Service, with our partners, 
has had to use pesticides and other strong tools. With the 
recent screwworm outbreak in the Florida Keys, for example, 
like any other partner on the landscape, we have to go through 
the necessary NEPA requirements, as well as obtain permits. But 
we worked together to apply the best treatment where necessary 
and move on.
    Senator Barrasso. Dr. Cook, what are some of the biggest 
obstacles in getting relevant stakeholders, including the 
Federal Government, State government, and local governments on 
the same page when potential pandemics like chronic wasting 
disease threaten wildlife populations? How do we get everybody 
working together?
    Mr. Cook. Thank you, Chairman. It is my belief that the 
Federal agencies need to facilitate more and regulate less. 
They can serve very valuable functions in bringing some of 
these interest groups together and show some leadership. But 
again, we need to have all the different interest groups there 
to give their perspectives. And we need to appreciate and 
respect the fact that these different interest groups come at 
these diseases with different values and different concerns, 
even different beliefs.
    So they all need to be represented, we need to choose those 
leaders that we have representing those interest groups wisely, 
so that we have respected leaders but also ones that we can 
depend on to facilitate that communication back to their 
constituency groups.
    Senator Barrasso. Mr. Guertin, what challenges do you face, 
U.S. Fish and Wildlife, on the National Wildlife Refuge System, 
when wildlife diseases encroachment becomes an issue?
    Mr. Guertin. Thank you, Mr. Chairman. Again, we have to 
work with all of our partners on the larger landscape to get to 
the root cause of these. These diseases and these vectors do 
not recognize the political or planning framework that is in 
place out there. So we approach them at a larger scale.
    We work with all the other partners on the landscape to set 
priorities, and then we develop either a response plan or a 
treatment plan. And we have demonstrated that with our efforts 
to work with the States on chronic wasting disease, under the 
leadership of the States, working on white-nose syndrome, and 
some of these outbreaks like fever tick in Texas, or screwworm 
down in Florida. Shared vision, shared resources, common 
objective.
    Senator Barrasso. I appreciate all of your comments.
    Senator Carper.
    Senator Carper. Thanks again.
    I have a question for all of our witnesses, and I will 
start, if I could, Holly, with you.
    As we know, climate change is a major impact in the 
emergence and spread of wildlife diseases globally. 
Temperature, rainfall, humidity, and other environmental 
factors all directly influence the incidence, the spread, and 
severity of wildlife diseases.
    Would you elaborate just a bit, each of you, on your 
understanding of how climate change affects the incidence or 
spread of wildlife diseases, and provide maybe an example or 
two, just very briefly, please?
    Holly.
    Ms. Niederriter. Thank you. Climate change has the impact 
to really exacerbate the problem of wildlife disease. Changing 
temperatures can expand the ranges for pathogens and parasites, 
it can expand them northward. I can give you specific examples 
in a minute. One of them already stressed by other factors are 
more susceptible to disease, so in cases where the temperature, 
or there are increased storm events or anything like that, will 
stress those animals even further, making them also more 
susceptible to diseases.
    Also for animals that are highly mobile, timing and 
availability of resources can be impacted. There was a study of 
winter bird counts taken over the past 40 years, and it showed 
that 22--nearly 20 percent of the species recorded shifted 
their migration route 100 miles north. When they do that, if 
their resources don't shift with them, they can get there and 
not have enough food or not have enough water or not have 
enough habitat. And that is another avenue for, again, being 
stressed and having disease take over.
    Then there are those species with restricted ranges, like a 
lot of the species I have worked with, with amphibians and 
reptiles in particular, which use specific ponds in woodlands 
and other habitat types. If the drought that is associated with 
climate change can impact those ponds by either making them 
smaller and less available, so there are a lot of species that 
are going to die out right away, and the ones that are left are 
going to be forced into smaller ponds, and more individuals in 
a smaller space is a great way for pathogens to be passed among 
individuals.
    Senator Carper. I'm going to ask you to give just a very 
few examples and give your fellow witnesses a chance.
    OK, thank you very much. For the record, we will want the 
examples, please.
    Dr. Cook, same question, please. Would you elaborate on 
your understanding of how climate change affects the incidence 
or spread of wildlife diseases, and maybe provide an example or 
two? Just very briefly.
    Mr. Cook. Yes, thank you, Ranking Member Carper, and 
Chairman Barrasso.
    I will start off by saying I am not a climatologist. This 
is not my area of expertise. But let me say that the diseases 
that I talked about, at least, are all infectious diseases. 
They are caused by an agent. And that is regardless of climate 
change, that won't change.
    We may see, as was previously mentioned, a change in the 
distribution of disease. So for example, with the chytrid 
fungus, we know that that fungus has an ideal temperature 
requirement. So as climate change occurs, you may see areas 
that previously didn't have that correct temperature now 
consequently do, so we may see the chytrid spreading into those 
areas that hadn't been previously impacted.
    Conversely, though, you may see that as other areas get too 
warm for the chytrid fungus, it may die out from other areas. 
Those are things I really can't predict, but that is a 
possibility.
    As somebody else mentioned, the role of stress, and when I 
think about the bighorn sheep pneumonia issues, I don't think 
that climate change will directly increase or decrease the 
spread or the transmission of that disease. But what could 
happen, bighorn sheep live in fragile environments, 
environments that don't necessarily have adequate nutrition all 
the time. And climate change could stress those environments 
even more to where there is less nutrition available, and 
clearly, an animal that has less nutrition is going to be less 
capable of fighting off any kind of infectious agents.
    Senator Carper. All right, thanks, Dr. Cook.
    Mr. Guertin, same question, please.
    Mr. Guertin. Thank you, Senator. As a land management 
agency, we look a lot at our operations, we look at lot at our 
land management planning. We are evaluating a lot of stressors 
on the landscape, fire, drought, disease, invasive species, and 
climatic changes that we are observing out there. Our job is to 
see how the species and our response to those challenges and 
then design resilient landscapes for the future and design 
proactive management strategies to safeguard these natural 
resources.
    Senator Carper. All right, thanks. My hope is we will have 
a chance to ask maybe one other question of you in the second 
round. We will see.
    Thank you very much.
    Senator Barrasso. Senator Braun.
    Senator Braun. Thank you, Mr. Chair. I have been a manager 
of timberland for a long time, and didn't appreciate invasive 
species until we are now contending with it in probably a way 
that doesn't have the significance and seriousness behind it, 
because it isn't dealing with a live animal or a human being.
    But what I have seen in the last 15 years from the emerald 
ash bore almost completely wiping out the ash population, 
hoping that there is going to be some resistance there, and 
there might be. But basically the end result has been, we have 
lost all of our ash trees. I look at the most venomous of all 
the invasives, Japanese stiltgrass, that looks like a regular 
weed growing in the woods. Most people have no idea that it 
will suffocate all regeneration.
    So there is no doubt about it, and I am sure climate is 
involved. It is mostly the fact that we are such an 
interconnected world that the isolation that kept us from 
having all these issues, that is gone. So we don't know what 
the solutions are going to be for our forests. Basically no 
idea, other than it is geometrically exploding across that 
context.
    Chronic wasting disease, which to me is one of the things 
that, due to the nature of the disease, of course, we want to 
be absolutely certain and know if that can ever hop from a deer 
to a human being. So far, looks like maybe not.
    But I want to focus in on it, because as an owner of timber 
ground, that is one of our biggest sources of income, leasing 
hunting rights to mostly deer hunters. I know it is on the 
doorstep of Indiana.
    I will start with you, Mr. Guertin, then we will go across 
the panel. How serious is it, in the sense of, have we had any 
tools that have worked, and what can we do through conservation 
groups, hunting groups, to get the word out that it is 
potentially going to be a deal breaker for deer hunters?
    Mr. Guertin. Thank you for your question, Senator. 
Unfortunately, at this point, there is no cure or treatment 
available. We are focused primarily on halting the spread of 
the disease and containing it where found. We have very 
aggressive strategies in place, in partnership with our States 
who are the lead on this. We work very closely with the outdoor 
recreation industry, with the hunting community, to get the 
word out. There are a number of protocols that have been 
established, including test tools and things like that.
    But our real strategy is one of containment and eradication 
if need be.
    Senator Braun. We tried that on the emerald ash bore, and 
sooner or later it just cascaded into all forests.
    Dr. Cook, can you explain to us here, when you do have it, 
does it completely wipe out a deer herd? Do some survive it? 
Has there been any indication of any type of immunity from 
within the herd?
    Mr. Cook. Thank you, Senator Braun, Chairman Barrasso. That 
is actually an excellent question.
    As far as we know, all cervids, all deer species are 
susceptible to chronic wasting disease. We haven't found a 
subtype that is immune. There are some genotypes, animals with 
certain genetic makeup, that have a degree of resistance, in 
that it takes them longer to develop disease. Once they have 
the disease, they live longer with it, but they ultimately do 
die of it. There isn't a true resistant form out there that we 
have identified at this point, anyway.
    One of the things that is really concerning about chronic 
wasting disease is that when it gets into the environment, once 
the environment becomes contaminated, it is basically there 
forever. At least we haven't discovered any ways to clean up 
the environment. So that is one of the things that is really 
concerning about it.
    What is interesting to me is that, as I have mentioned, we 
have noticed some populations that are clearly impacted where 
the population levels are going down because of chronic wasting 
disease. Yet there are other populations where that has not 
occurred. And we don't know why that is. I think one of the 
keys to really understanding this disease is understanding why 
it seems to increase in prevalence in certain environments and 
not so much in others. Because that would be our first step in 
trying to predict where it is going to go, and maybe getting a 
handle on trying to control it.
    Senator Braun. What is a host, when it survives in the 
ground or whatever, is it just there? Or does it have to--is it 
parasitic on something to where it would then reinfect a 
revived deer herd?
    Mr. Cook. Excellent question, Senator Braun. The prion 
basically exists on its own. So we know the prions are shed in 
saliva, urine, and feces. They also accumulate in the brain and 
spinal cord of an animal. So when an animal dies of CWD, as 
that animal disintegrates, deteriorates over time, those prions 
are released as that body decomposes and then contaminate the 
soil. They exist in the soil, essentially perpetually.
    Senator Braun. Wow. Thank you.
    And real quickly, Holly, is there any connection between 
chronic wasting disease and climate change, that you are aware 
of?
    Ms. Niederriter. The chronic wasting disease is not a 
disease that I know much of anything about. I am also not a 
climatologist, but I don't know of any particular connection 
for that one.
    Senator Braun. Thank you.
    Ms. Niederriter. Some other deer diseases, though.
    Senator Barrasso. Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman. Thank you and 
Senator Carper for holding this hearing today.
    This really is a big deal for our State and so many States 
throughout the country. In fact, I think we have 700,000 
hunters and anglers in Arkansas that create 25,000 jobs, 
billion dollars in income, which again, much of that money is 
put back into conservation. So it is something that is not only 
good for the economy, but it is great for trying to protect the 
species that we are talking about.
    Mr. Guertin, in regard to that, a billion dollars is very 
important to the State. I guess what I would like to do is for 
you to comment on the economic impact that you see.
    Mr. Guertin. Thank you for your question, Senator. We are 
seeing a lot of concern in the outdoor recreation economy, in 
the sport hunting community in particular. People make policy 
choices, whether they want to invest in a big hunt, buy arms, 
equipment, hotels, et cetera.
    We are doing a lot of proactive work with the State fish 
and game agencies and others to make sure people know it is 
still safe to hunt. There are some questions with CDC and 
others about whether this will be transmitted to humans or not. 
And many people wait to get their carcass tested. But for us, 
it will be a lot of education, outreach, and keeping alive the 
American tradition of sport hunting through the support we can 
offer.
    Senator Boozman. Very good. I think in Arkansas we have had 
619 positive cases. Some of the things that the Arkansas game 
and fish has done is come up with innovative ways, the drop 
boxes, so that you can test elk and deer. Last year, I believe 
they tested 1,400 samples. This season they plan to install at 
least one drop box in every county.
    Are there things like that that your agency is doing that 
you have come up with, some innovative ideas to address the 
problem?
    Mr. Guertin. Senator, a lot of the testing is under the 
auspices of the State fish and game agencies. They are 
deploying some very innovative solutions, they get some test 
kit responses very quickly, while people wait, whether or not 
they can have that animal processed there.
    The Fish and Wildlife Service provides a lot of technical 
capacity and funding through various grant programs that 
support those State efforts. And we will continue to do 
everything we can to support our colleagues in the State fish 
and game agencies and the larger hunting community to get quick 
results back.
    Senator Boozman. I mentioned conservation, which is so, so, 
very important. According to a recent study by the Association 
of Fish and Wildlife Agencies, an estimated 58.8 percent, or 
$3.3 billion of conservation funds to State wildlife agencies 
came from hunting and fishing related activities, either 
directly through sale of licenses, tags, stamps, or indirectly 
through Federal excise taxes on hunting, recreational shooting, 
and angling equipment.
    Again, talk to us a little bit about the synergy between 
those two, regarding conservation, which is so, so, very 
important.
    Mr. Guertin. Thank you for your question, Senator. The U.S. 
Fish and Wildlife Service is proud to stand shoulder to 
shoulder with our colleagues in the State fish and game 
agencies. We work with them under the umbrella organization of 
the Association of Fish and Wildlife Agencies to align our 
priorities, to align our capacity. We all are here to serve the 
American people and make sure we have sustainable populations 
of wildlife for generations to come.
    Key to that is, of course, the outdoor recreation industry. 
Another key driver for us is the larger conservation mission. 
So the Service provides a lot of grant funding and capacity, as 
do the States, to share the common objective of conservation to 
benefit the generations to come.
    Senator Boozman. And also, Senator Barrasso, I want to 
thank you that we are a co-sponsor of your bill concerning 
chronic wasting. I know that what that does is make it such 
that when completed, the study would give the State wildlife 
agencies and wildlife experts better information to conduct 
targeted research on how the disease is transmitted, and 
determine which areas are most at risk, and develop consistent 
advice for hunters to prevent further spread.
    That to me--and certainly as a physician, you are certainly 
aware of the importance of getting good information out there. 
Two, going to the cause. So again, give yourself a pat. We 
appreciate it.
    Senator Barrasso. I am just grateful for your partnership 
in this, and your cooperation, and being willing to lend your 
name and support to this bill. Thank you for all your help.
    Senator Boozman. Well, thank you all, and again, thank you 
all for your hard work in fighting these things. The way that 
you can help us is as you think of things that we can be better 
supportive, in the areas that you are working on, be sure, and 
let us know. The nice thing about this is it is not a 
Republican or Democrat thing. It is something that the entire 
country is interested in, and we are interested in doing. Like 
I said, that is how you can support us and help us. Thank you.
    Senator Barrasso. Thanks, Senator Boozman.
    Senator Carper, you had an additional question.
    Senator Carper. I do. I understand Senator Gillibrand is 
close by, and if she walks in, I will just yield back to her 
and then pick up my time after she is finished.
    Very briefly, from each of you, give us one piece of 
advice--we think you all agree that you would really like to--
in the Navy we call it like a foot stomping kind of deal, maybe 
in the Marines and Army as well, our instructors in our 
training, if they had something they really wanted us to 
remember for the test, they'd stomp their feet. And that was 
something we should write down.
    But in terms of advice you think you all agree on, what 
would be something you think you would really want us to take 
home?
    Do you want to go first, Mr. Guertin?
    Mr. Guertin. Thank you, Senator. The key, unifying theme 
for all of us is the collaborative nature, the partnership 
nature, the all hands on deck nature of the response. The Fish 
and Wildlife Service is one entity among many. We are proud to 
partner with the States, academia, the NGOs, the other Federal 
agencies, to develop a common mission, and all of us deploy our 
resources as a priority against getting ahead of these wildlife 
diseases, so we can ensure wildlife and fisheries resources for 
the continuing benefit of the American people.
    Senator Carper. All right, thank you.
    Same question, Dr. Cook.
    Mr. Cook. Yes, thank you, Ranking Member Carper. Coming 
from a university perspective, I have to put in a plug for more 
funding for research, of course. But I think this is another 
good example of the cooperation and collaboration, the idea of 
a task force that is overseeing this to provide direction.
    As I mentioned, one of my concerns is that a lot of 
wildlife disease research that is ongoing is very esoteric and 
not very practical. By having a working group that is 
overseeing this, that has stakeholders, that provides some 
direction on where that research ought to go, they can make 
sure that that research that is being conducted has management 
implications, will actually help wildlife managers in making 
their decisions on how to manage not just chronic wasting 
disease, but others as well.
    Senator Carper. Thank you.
    Holly, same question, very briefly, please.
    Ms. Niederriter. My answer is pretty much the same as 
theirs. That collaborative effort is what is really needed, and 
having a central--one central entity that can oversee all of 
that. That helps keep repetition from happening, it really 
helps focus on specific, the most important aspects of it. In 
the case of white-nose syndrome, and in the case of Bsal, which 
is a salamander disease that is happening, there is a central 
group of people who came up with a specific plan, with really 
good guidelines for how to move forward. I think that really 
does help the States, it helps us focus on those things.
    But funding really does have to be a part of it as well, 
especially to States.
    Senator Carper. Thank you.
    I reserve the balance of my time and yield to Senator 
Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman, Mr. Ranking 
Member, for the hearing.
    Lyme disease is a serious problem in New York and across 
the country. The Cary Institute of Ecosystem Studies estimated 
that more than 400,000 people are diagnosed with Lyme disease 
in the United States each year. And this number is increasing 
rapidly due to a number of factors, including climate change.
    According to Centers for Disease Control and Prevention, 
New York is one of the top States in the country for reported 
cases of Lyme disease. Lyme disease is transmitted to humans by 
deer ticks, and can have debilitating and life long health 
effects.
    Mr. Guertin, what can Fish and Wildlife Service do to help 
States and localities address the prevalence of Lyme disease?
    Mr. Guertin. Thank you for your question, Senator.
    The Fish and Wildlife Service can provide a lot of 
technical assistance. We can provide grant funding to our 
colleagues in the State fish and game agencies. A lot of the 
management authority for whitetail deer is vested with our 
colleagues in the State fish and game agencies. So in this 
space, we are more of a technical assistance provider and can 
help in a larger outreach and education and eradication 
campaign, coordination, so to speak.
    Senator Gillibrand. Thank you.
    Ms. Niederriter, can you talk about the impacts that 
climate change is having on the habitat and range of deer ticks 
and what effect that could have on the spread of Lyme disease 
in the United States?
    Ms. Niederriter. I don't really know the answer to that 
specifically. But I would expect, and it certainly has been the 
case with some tick species and some animals that are being 
impacted by them, that as the climate warms, and it gets warmer 
in places that weren't warm before, more ticks--ticks are 
active when it is warm out. And they thrive in warmer climates, 
so they are most likely to be a worse problem, based on what we 
know about climate change and ticks.
    Senator Gillibrand. Would you do some research for me and 
submit a letter to the committee with a fuller answer on that 
question?
    Ms. Niederriter. Yes.
    Senator Gillibrand. Thank you.
    Are there any additional resources that States need to 
address the factors that contribute to the spread of Lyme 
disease, in your opinion?
    Ms. Niederriter. Would you repeat the question?
    Senator Gillibrand. Are there additional resources that 
States need to address the factors that contribute to the 
spread of Lyme disease?
    Ms. Niederriter. I am sure that they could use more funding 
to look at that. I know in Delaware, we recently hired a 
biologist who is focusing mostly on ticks. So that is a huge 
help, and I am not sure where the funding came from for that. 
But if each State had that, and there was like a central 
overseer to help collaborate all that information, that would 
be helpful.
    Senator Gillibrand. Interesting.
    I want to move now to salamander disease. Ms. Niederriter, 
in your testimony, you mentioned Bsal, a fungal disease that is 
currently devastating salamanders in Europe. Fortunately, this 
disease has not yet made it to the United States.
    A few weeks ago, I received a letter from a 5 year old 
constituent of mine named Earl, who wrote to ask that I help 
salamanders, his favorite animal. Here is the letter; I ask 
unanimous consent to submit the letter and his parents' letter 
into the record.
    Senator Barrasso. From a 5 year old, absolutely, there is 
no objection.
    [The referenced information was not received at time of 
print.]
    Senator Gillibrand. Thank you.
    So I would like to ask you what we can do to help prevent 
the spread of Bsal to the United States. As I am sure you are 
aware, the U.S. Fish and Wildlife Service established the North 
American Bsal Task Force in 2015. Acting on recommendations 
from the task force, the Fish and Wildlife Service banned the 
importation of 201 different species of salamander.
    However, recent reports in scientific literature show that 
many species of frogs, toads, and newts may carry Bsal without 
any signs of infection. Should the work of the task force be 
restarted to consider further restrictions on imported 
amphibians?
    Ms. Niederriter. To answer that very shortly, yes. I do 
think that that would be a helpful thing to do for sure. And 
additional research into how the disease can be transmitted 
between those different species. I know there is research going 
on right now looking at specific species that are likely to 
carry it and to have it. But restricting the disease from 
getting in is priority one right now.
    Senator Gillibrand. What can we as the committee do to 
ensure that the task force takes a more active posture in 
surveillance and response to Bsal?
    Ms. Niederriter. I am not sure how the committees really 
work and at what level they can work. But I would think that 
reaching out to the individual States and to the task force 
would be helpful.
    Senator Gillibrand. OK. And would additional resources for 
the partners in amphibian and reptile conservation, or the 
regional State wildlife grants, be an option for preventing 
Bsal introduction?
    Ms. Niederriter. Can you repeat that question? I'm sorry.
    Senator Gillibrand. More money, would that be helpful?
    Ms. Niederriter. Yes, absolutely. Always.
    [Laughter.]
    Senator Barrasso. All three members have testified to that 
effect already.
    Senator Gillibrand. That is always a good idea.
    Mr. Guertin, some of the current--this is now moving to 
honeybees--oh, I am out of time.
    Mr. Guertin, I would like to submit two questions for the 
record for you on the colony collapse disorder and other things 
affecting our honeybees.
    Mr. Guertin. We would be glad to respond for the record. 
Thank you, Senator.
    Senator Gillibrand. Thank you.
    Thank you again, Mr. Chairman.
    Senator Barrasso. And Dr. Cook, as an academician, also 
requested additional funding.
    Senator Gillibrand. Excellent. More experts.
    Senator Barrasso. Senator Carper.
    Senator Carper. Thanks very much.
    We are expected to know, as Senators, a little bit about 
almost everything. I like to say, a mile wide and an inch deep. 
Some issues, some areas we are expected to know more.
    For those of us on this committee, we focus on a lot of 
environmental issues, and a lot of infrastructure, 
transportation and infrastructure issues. The Chairman is going 
to from here to the Foreign Relations Committee. So he is 
expected to know a whole lot more about that, and more in 
depth.
    I know in your job, I suspect in your job, Mr. Guertin, you 
are expected to have a whole lot of information about a lot of 
stuff in the area of your jurisdiction. What I would just ask 
from each of you, how important would you say--and we will 
start with you, Holly--how important would you say is a 
director's expertise in wildlife management and wildlife laws 
in addressing wildlife disease and other complex wildlife 
challenges? How important is that?
    Ms. Niederriter. How important is their----
    Senator Carper. How important is a director's expertise in 
wildlife management and wildlife laws in addressing wildlife 
disease and other complex wildlife challenges? How important is 
it?
    Ms. Niederriter. I think it is very important, because 
understanding them is really the first step in how to address 
any of the issues that occur.
    Senator Carper. All right, thank you.
    Dr. Cook, any thoughts?
    Mr. Cook. Yes, I would agree, thank you, Senator Carper, 
for the question. I would agree that it is important. I think 
they have to have the 30,000 foot view. We can't expect them to 
be completely up to date on all the intricate details, but 
certainly to understand the broad implications of disease 
management. I would consider that to be important, yes, sir.
    Senator Carper. All right.
    Mr. Guertin, any thoughts?
    Mr. Guertin. Thank you for your question, Senator. In the 
Federal agencies, for the executive level positions, we are 
also looking at the executive core qualifications, leading 
change, leading people, these executive functioning skills, 
leadership communications, project management, as well as the 
technical credentials of the leadership cadre.
    Senator Carper. Thanks.
    One last question, if I could, Mr. Guertin, dealing with 
threatened and endangered species. While wildlife disease 
presents a serious threat to all species, it can be 
particularly dangerous for threatened and endangered species, 
as you know. These species are especially vulnerable to 
disease, because they have small population sizes, lower 
genetic diversity, and they are already stressed by factors 
like habitat loss, invasive species, and pollution.
    To what extent is disease a barrier to the Service's 
implementation of the Endangered Species Act, and how does 
disease factor into the Service's ability to recover threatened 
and endangered species?
    Mr. Guertin. Thank you for your question, Senator. When the 
U.S. Fish and Wildlife Service makes an evaluation, a listing 
determination of any species, we base it solely on the best 
available scientific information, and we use what is called a 
five factor analysis. We evaluate five prevailing conditions. 
They include present or perceived destruction of habitat, it 
includes disease or predation, it involves over-utilization for 
commercial or other purposes, it involves the status of 
existing regulatory mechanisms, and then any other man made 
factors that would affect its survival.
    So disease is one of the big five that we use to make any 
potential determination for Federal protection under the 
Endangered Species Act.
    Senator Carper. OK, thank you.
    Thank you all.
    Senator Barrasso. Senator Cardin.
    Senator Cardin. Let me thank all of you for your service, 
and for your being here today.
    I just want to make a point about how we need to deal with 
our environment as it relates to the spread of diseases. When 
you look at the success that we had on the Eastern Shore of 
Maryland, on the DelMarVa Peninsula fox squirrel, which was 
listed as an endangered species, it is now off, it was habitat 
loss that was the major culprit for the endangerment of that 
species.
    So as we are looking at challenges today, and I look at my 
own State, look at the Chesapeake Bay watershed, the 
restoration of wetlands is critically important for many, many 
reasons. One reason is that it protects our species. Climate 
change has made it more challenging, because we are now facing 
different challenges than we did before.
    So what type of strategy can we deploy to sensitize our 
efforts in these areas, recognizing that the health of the 
species are very much at stake? How can we do a better job in 
education, and in practical ways that we can help restore 
habitat to protect species?
    Mr. Guertin. Thank you for your question, Senator. The Fish 
and Wildlife Service, first and foremost, wants to develop a 
shared vision with all the stakeholders on the landscape we 
operate in, starting with our colleagues in the local fish and 
wildlife agency, as well as other primary landowners who have 
management authority in that area.
    We then try to work to develop a common vision for 
conservation, working landscapes. We then try to bring the 
tools we can to bear, there are a variety of things, there is 
our Partners for Fish and Wildlife program, that does a lot of 
work with private landowners on habitat restoration for 
priority and trust species.
    We can provide a lot of technical assistance, fish passage 
and other things. And then the Secretary of Interior has a 
number of conservation programs, including the North American 
Waterfowl Conservation Fund, the LWCF and others. We can 
prioritize conservation easement overlays, in some cases, fee 
title. A variety of tools to deploy in a chosen project area, 
so to speak, to focus on a larger conservation outcome while 
balancing that with other uses of the land.
    Senator Cardin. One thing I would point out is that we 
found the success of the Chesapeake Bay program was because the 
public understands it. They get it, they understand that what 
they do, how they handle the runoff, how they handle their 
farming practices, how we handle development, how we handle 
treatment of waste, all have a major impact on the quality of 
the Chesapeake Bay.
    I am not sure we have done the same degree of educating the 
public as protection of species in this regard. Can we be more 
effective in the way that we engage the public as the 
importance of these programs in regard to the health of 
species?
    Mr. Guertin. Certainly, Senator. The Chesapeake Bay and all 
the partners there are really a beacon for conservation for the 
rest of the country, all the work that the State of Maryland, 
Delaware, Virginia have done, the Federal partners, unifying 
around a lot of larger objectives, balancing recreational and 
commercial fishing, balancing against invasive species control, 
such as nutria eradication, and then using the necklace of 
wildlife refuges and other lands.
    And the big partnership with private landowners and people 
have rallied around some of the big species, striped bass, 
waterfowl, and others, as iconic to represent the needs of that 
area. We can certainly replicate that type of success story in 
other parts of the country to demonstrate the value of a 
balanced approach to species conservation while Americans make 
a living on the same landscape.
    Senator Cardin. I will look forward to working with you on 
that. I am out frequently with your people in the community. It 
is great, I just don't see us concentrating as much, I think, 
on this area as we should. So I think we should look for 
opportunities to enhance these areas.
    Mr. Guertin. Thank you, Senator. We would welcome the 
opportunity to work further with you and develop that common 
vision and move forward to implement with our State partners.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Cardin.
    Senator Carper.
    Senator Carper. Mr. Chairman, I have no letters from 5 year 
olds, but I do have a unanimous consent request to enter into 
the record additional written testimony from stakeholders 
impacted by the spread of wildlife disease. And just as a P.S., 
the value of agriculture in our State's economy is about $8 
billion a year, $8 billion, which is a lot of money for a 
little State.
    And people say to me, why do we care about the brown bat, 
why should it be that important. And I say, agriculture is our 
No. 1 industry, tourism close, No. 2. It is important we have 
those bats, because they are eating mosquitos and a lot of 
other things that help us as tourists and make Delaware more 
attractive, and help our farmers be more successful and 
profitable. Thank you.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Senator Barrasso. Thank you, Senator Carper.
    I want to thank all the witnesses, thank you for being 
here, thank you for your exquisite testimony. It was very well 
received. We appreciate your time answering the questions.
    There are no more questions for the panel today, but 
members may submit questions for the record. The hearing record 
will therefore stay open for 2 weeks.
    We hope that if you receive questions, and I know you have 
been given a homework assignment by one of the members, if you 
would please get that in within the amount of time.
    I want to thank the witnesses for your time and your 
testimony.
    The hearing is adjourned.
    [Whereupon, at 11:20 a.m., the hearing was concluded.]

                                 <all>
</pre></body></html>
